INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES (G-454)

                                                                     April 30, 2007

To:    Jeffrey Risinger
  '    Associate Executive Director for Human Resources

,,om: ,alter s t a c h e        %         g         4
      Inspector General

Re:    Verification of Bar Membership

During an investigation conducted by the Office of Inspector General (OIG-454), we
learned that verification of bar membership is not routinely performed for new hire
attorneys. Office of Human Resources (OHR) staff informed us that the Commission has
an Attorney's Bar Affidavit Form (SEC-222). According to OHR staff, however, this
form is not used for new hire attorneys, but only for law clerks who pass the bar and are
converted to attorney positions.

To ensure that new hire attorneys are, in fact, bar members, controls in this area should
be improved.

       Recommendation A

       The Office of Human Resources, in consultation with other Divisions and Offices
       as appropriate, should revise its procedures for hiring new attorneys to require
       that bar membership be verified prior to the commencement of employment.

       The Office of Human Resources concurs with this recommendation.
